OFFICE OF INSPECTOR GENERAL
                     Audit Report
Review of the Accuracy of the Financial Interchange as
  Executed for the Year Ended September 30, 2008


   This report was prepared by KPMG LLP, under contract to the
   U.S. Railroad Retirement Board, Office of Inspector General, and by
   acceptance, it becomes a report of the Office of Inspector General.


                                                  Original Signed by….
                                                 Martin J. Dickman
                                                 Inspector General
                                    U.S. Railroad Retirement Board




                        Report No. 10-10
                         May 25, 2010




   RAILROAD RETIREMENT BOARD
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                    Independent Accountants’ Report
                                  on Applying Agreed-Upon Procedures


Office of Inspector General
U.S. Railroad Retirement Board:

We have performed the procedures enumerated in the attached Exhibit, which were agreed to by the Office
of Inspector General (OIG) of the U.S. Railroad Retirement Board (RRB), solely to assist you in reviewing
the accuracy of the 57th determination of the Financial Interchange (FI) as executed between RRB and the
Social Security Administration, and between RRB and the Centers for Medicare and Medicaid Services for
the year ended September 30, 2008. RRB’s management is responsible for the accuracy of the 57th
determination of the FI as executed. This agreed-upon procedures engagement was conducted in
accordance with attestation standards established by the American Institute of Certified Public Accountants
and the standards applicable to attestation engagements contained in Government Auditing Standards issued
by the Comptroller General of the United States. The sufficiency of these procedures is solely the
responsibility of the RRB OIG. Consequently, we make no representation regarding the sufficiency of the
procedures described in the attached Exhibit either for the purpose for which this report has been requested
or for any other purpose. Our procedures and findings are summarized in the Exhibit.

We were not engaged to, and did not, conduct an examination, the objective of which would be the
expression of an opinion on the accuracy of the FI calculation as executed by RRB. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the information and use of the RRB OIG and management, and is not
intended to be and should not be used by anyone other than these specified parties.




May 20, 2010




                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
                                                                                                                        Exhibit

    Agreed Upon Procedures and Findings for the Review of the Accuracy of the the 57th Determination
                              of the Financial Interchange as Executed



Procedure 1
Through inspection of electronic and non-electronic media supporting the 57th Determination of the
Financial Interchange (FI) Model (the Model), determine whether the statistical methods, approach and
methodology utilized by the Bureau of the Actuary are accurately executed.

Findings

Through inspection of electronic and non-electronic media supporting the 57th Determination of the FI
Model, we determined that the statistical methods, approach and methodology utilized by the Bureau of the
Actuary are accurately executed.



Procedure 2
Identify the data inputs at each step in the modeling process. Determine if the data inputs are complete and
accurate.

Findings

We identified the data inputs at each step in the modeling process, including data from the Master Benefits
file, the Wage Study file and other data sources.1 We determined the data inputs to be complete and
accurate in the 57th Determination FI transfer amounts.



Procedure 3
Determine if the Model’s design, implementation and execution are documented such that the FI
calculation can be replicated by someone who is unfamiliar with the process.

Findings

We determined that the Model’s design, implementation and execution are not documented such that the FI
calculation can be replicated by someone who is unfamiliar with the process.




1
  The determination of the FI requires an extensive number of primary and intermediate data inputs, and as such, the volume of
such data inputs precludes us from including a complete listing in this report.
                                                                                                                                 2
